           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Termination Notification:             Date:    October 16, 2012
           Audit of DOT’s Contract Closeout Processes
           Project No: 11Z3003Z000

  From:    Mary Kay Langan-Feirson                               Reply to    JA-60
                                                                 Attn. of:
           Assistant Inspector General for
            Acquisition and Procurement Audits

    To:    Office of the Senior Procurement Executive
           FAA Federal Acquisition Executive

           On October 27, 2011, the Office of Inspector General (OIG) initiated an audit of the
           Department of Transportation’s (DOT) contract closeout processes. The objective of the
           audit was to determine whether DOT’s Office of the Secretary and DOT Operating
           Administrations are closing out contracts efficiently and effectively, including de-
           obligating excess funds on completed contracts.

           Due to other priority audits, we terminated our audit of DOT’s contract closeout process
           in August 2012. Given our commitment to oversight of DOT’s contracting practices, we
           may re-announce this audit at a later date. We will notify you by separate memorandum if
           we initiate the new audit.

           We appreciate the courtesies and cooperation of the Office of the Senior Procurement
           Executive representatives during our audit. If you have any questions, please do not
           hesitate to call me at (202) 366-5225, or Terry Letko, Program Director, (202) 366-1478.

           cc:        Martin Gertel, M-1
                      Pierre McLeod, AAE-100
